<html>
<title> - IMPLEMENTATION OF THE VOW TO HIRE HEROES ACT OF 2011</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





                           IMPLEMENTATION OF
                   THE VOW TO HIRE HEROES ACT OF 2011

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 15, 2011

                               __________

                           Serial No. 112-38

                               __________

       Printed for the use of the Committee on Veterans' Affairs



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>






                  U.S. GOVERNMENT PRINTING OFFICE

72-244                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001











                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

CLIFF STEARNS, Florida               BOB FILNER, California, Ranking
DOUG LAMBORN, Colorado               CORRINE BROWN, Florida
GUS M. BILIRAKIS, Florida            SILVESTRE REYES, Texas
DAVID P. ROE, Tennessee              MICHAEL H. MICHAUD, Maine
MARLIN A. STUTZMAN, Indiana          LINDA T. SANCHEZ, California
BILL FLORES, Texas                   BRUCE L. BRALEY, Iowa
BILL JOHNSON, Ohio                   JERRY McNERNEY, California
JEFF DENHAM, California              JOE DONNELLY, Indiana
JON RUNYAN, New Jersey               TIMOTHY J. WALZ, Minnesota
DAN BENISHEK, Michigan               JOHN BARROW, Georgia
ANN MARIE BUERKLE, New York          RUSS CARNAHAN, Missouri
TIM HUELSKAMP, Kansas
MARK E. AMODEI, Nevada
ROBERT L. TURNER, New York

            Helen W. Tolar, Staff Director and Chief Counsel

                                 ______

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                 MARLIN A. STUTZMAN, Indiana, Chairman

GUS M. BILIRAKIS, Florida            BRUCE L. BRALEY, Iowa, Ranking
BILL JOHNSON, Ohio                   LINDA T. SANCHEZ, California
TIM HUELSKAMP, Kansas                TIMOTHY J. WALZ, Minnesota
MARK E. AMODEI, Nevada

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.










                            C O N T E N T S

                               __________

                           December 15, 2011

                                                                   Page

Implementation of the Vow to Hire Heroes Act of 2011.............     1

                           OPENING STATEMENTS

Chairman Marlin A. Stutzman......................................     1
    Prepared statement of Chairman Stutzman......................    20
Hon. Bruce L. Braley, Ranking Democratic Member..................     2
    Prepared statement of Congressman Braley.....................    20

                               WITNESSES

Ismael Ortiz, Jr., Acting Assistant Secretary, Veterans' 
  Employment and Training Service, U.S. Department of Labor......     3
    Prepared statement of Mr. Ortiz..............................    21

    Accompanied By:

      Gerri Fiala, Deputy Assistant Secretary, Employment and 
          Training Administration, U.S. Department of Labor

Curtis L. Coy, Deputy Under Secretary for Economic Opportunity, 
  Veterans Benefits Administration, U.S. Department of Veterans 
  Affairs........................................................     5
    Prepared statement of Mr. Coy................................    23

    Accompanied By:

      Keith M. Wilson, Director, Education Service, Veterans 
          Benefits Administration, U.S. Department of Veterans 
          Affairs

                   MATERIAL SUBMITTED FOR THE RECORD

Deliverable from Department of Veterans Affairs, Received 
    February 1, 2012

  Questions from Honorable Bill Johnson to Mr. Curtis Coy, Deputy 
    Under Secretary for Economic Opportunity, Veterans Benefits 
    Administration, U.S. Department of Veterans Affairs..........    27

 
                           IMPLEMENTATION OF
                   THE VOW TO HIRE HEROES ACT OF 2011

                              ----------                              


                      THURSDAY, DECEMBER 15, 2011

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                      Subcommittee on Economic Opportunity,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:09 a.m., in 
Room 340, Cannon House Office Building, Hon. Marlin A. Stutzman 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Stutzman, Bilirakis, Johnson, 
Braley, Walz.

             OPENING STATEMENT OF CHAIRMAN STUTZMAN

    Mr. Stutzman. Good morning. And I want to welcome everyone 
this morning to the Subcommittee on Economic Opportunity. And I 
want to thank our witnesses for being here this morning. We are 
here today to begin this Subcommittee's review of the 
implementation of Public Law 112-56, the Vow to Hire Heroes Act 
of 2011. This will be just the first in a series of oversight 
hearings we will hold through July of next year.
    This bipartisan and bicameral legislation was signed into 
law by the President in November and is the culmination of many 
months of work by this committee and many others to reduce 
unemployment among veterans. These efforts began with oversight 
hearings by this Subcommittee last winter, which led to the 
introduction and passage of H.R. 2433, the Veteran Opportunity 
to Work Act of 2011 earlier this fall.
    The major provision of both H.R. 2433 and the Vow to Hire 
Heroes Act is the temporary extension of Montgomery GI Bill 
benefits to eligible veterans to receive up to 1 year of 
training at a community college or technical school for in 
demand occupations. Eligible veterans would have to be between 
the age of 35 and 60, be unemployed, and not have eligibility 
for other VA education programs.
    The latest numbers from the Bureau of Labor Statistics show 
that there are an estimated 531,000 unemployed veterans between 
the ages of 35 and 64. This represents about two-thirds of all 
of unemployed veterans in this country. It is this population 
that this program is intended to help. And it is our obligation 
to ensure that VA and VETS meet the July 1, 2011 implementation 
deadline so this provision can help this group of aging 
veterans as quickly as possible.
    While there are many other worthwhile provisions in the Vow 
Act, the implementation of this provision and the provision 
extending vocational rehabilitation benefits to veterans who 
have passed their delimiting date will be this Subcommittee's 
focus.
    While I am aware that the legislation was only signed into 
law a few weeks ago, I am anxious to hear about the progress 
the VA and the DOL have been making on implementation in their 
plans for future collaboration as required by law.
    I cannot stress enough that the proper implementation of 
this law is extremely critical. And as such, I want to put both 
agencies on notice that this will our Subcommittee's top 
priority in the next session of Congress and we need your help. 
And we look forward to working with you in identifying 
obstacles and problems as soon as possible so we can work 
together and work them out, and get this law implemented.
    Together we can ensure that our veterans are not cheated 
out of this wonderful benefit because of any bureaucratic 
delays or hurdles. Our veterans deserve and will receive 
nothing less. So I thank our witnesses for being here today to 
inform us on the progress the departments have made. At this 
time I want to yield to the distinguished Ranking Member from 
the great State of Iowa, Mr. Braley.
    [The statement of Marlin A. Stutzman appears on p. 20.]

 OPENING STATEMENT OF HON. BRUCE L. BRALEY, RANKING DEMOCRATIC 
                             MEMBER

    Mr. Braley. Well thank you for acknowledging the greatness 
of the State of Iowa, Mr. Chairman. I can tell you after 
visiting Fort Wayne with you earlier this summer, I extend the 
same warm greeting to all of your constituents and colleagues 
back in Indiana. This has been a delightful Subcommittee to 
work with this year and we have a great panel, and we welcome 
all of you especially a special guest from the State of Iowa 
who has roots in Mason City. So welcome to all of you.
    I am very proud to have worked with this Committee to pass 
the Vow to Hire Heroes Act and I am optimistic that this 
legislation is a step in the right direction to putting our 
veterans back to work. In August when we were doing our field 
hearings in Waterloo, Iowa and Fort Wayne, Indiana I introduced 
the Combat Veterans Back to Work Act, which provided tax 
incentives to employers to hire veterans who recently returned 
from service overseas. And I am pleased that the Vow Act 
includes tax incentives for hiring veterans that I have been 
pushing all year.
    Additionally in October I joined Chairman Stutzman to host 
two field hearings, one in Iowa and one in Indiana, that 
focused on the important issue of veterans unemployment. And 
one of the things that came up at those hearings was the need 
to help returning servicemembers translate their military 
skills to the civilian workforce, which is why I am pleased 
that the Vow Act includes veterans retraining provisions. This 
will ensure that they have the skills necessary to be 
competitive in today's tough job market.
    Section 211 of the bill which focuses on retraining has an 
implementation date of July, 2012. This new program will be 
very beneficial for older veterans that have exhausted their 
educational benefits or other available VA educational 
programs. And it is my hope that they Department of Veterans 
Affairs and the Department of Labor have already begun 
discussions on how to jointly carry out this program and 
administer this section as scheduled. The interagency program 
will change the lives of 99,000 unemployed veterans and that is 
a goal we can all be focused on and hopefully help reduce.
    Section 233 of the Vow to Hire Heroes Act provides disabled 
veterans up to 12 months of additional vocational, 
rehabilitation, and employment benefits. In the past we have 
had hearings and discussions surrounding VR&E counselors 
workload. During our March hearing we expressed our concern 
with the VR&E veteran to counselor ratio of one to 136. I look 
forward to hearing from our witnesses today on what steps will 
be taken to ensure there is adequate staff at VR&E who are 
prepared to handle proper implementation of this section. And I 
hope the VA is ready to discuss how they will prepare to handle 
additional workload without sacrificing the counseling services 
that veterans need.
    And with that I thank you all and yield back.
    [The statement of Bruce L. Braley appears on p. 20.]
    Mr. Stutzman. Thank you, Mr. Braley. And at this time I 
want to welcome our panelists. And our panel consists of Mr. 
Curtis Coy, who is accompanied by Mr. Keith Wilson. Welcome. 
And both of these gentlemen are from the Department of Veterans 
Affairs. And Mr. Ortiz, who is accompanied by Ms. Gerri Fiala, 
both from the Department of Labor. And I had the opportunity to 
visit with Mr. Ortiz just a couple of days ago. Some remarkable 
stories, four sons in the military. So I am looking forward to 
working with you. You should be very proud of your family and 
what you have accomplished yourself, as a veteran yourself. And 
so thank you for being here this morning, and we will recognize 
you for five minutes for your testimony.

 STATEMENTS OF ISMAEL ORTIZ, JR., ACTING ASSISTANT SECRETARY, 
 VETERANS' EMPLOYMENT AND TRAINING SERVICE, U.S. DEPARTMENT OF 
LABOR; ACCOMPANIED BY GERRI FIALA, DEPUTY ASSISTANT SECRETARY, 
  EMPLOYMENT AND TRAINING ADMINISTRATION, U.S. DEPARTMENT OF 
 LABOR; AND CURTIS L. COY, DEPUTY UNDER SECRETARY FOR ECONOMIC 
OPPORTUNITY, VETERANS BENEFITS ADMINISTRATION, U.S. DEPARTMENT 
OF VETERANS AFFAIRS; ACCOMPANIED BY KEITH M. WILSON, DIRECTOR, 
   EDUCATION SERVICE, VETERANS BENEFITS ADMINISTRATION, U.S. 
                 DEPARTMENT OF VETERANS AFFAIRS

                 STATEMENT OF ISMAEL ORTIZ, JR.

    Mr. Ortiz. Good morning, Mr. Chairman, Mr. Braley, and 
distinguished Members of the Subcommittee. My name is Junior 
Ortiz of the Department of Labor's Veterans' Employment and 
Training Service. And I am accompanied by Ms. Gerri Fiala, 
Deputy Assistant Secretary for the Employment and Training 
Administration. Thank you for the invitation to participate in 
today's hearing on the implementation of the Vow to Hire Heroes 
Act of 2011.
    This legislation is an integral part of President Obama's 
efforts to ensure that America fulfills its obligation to our 
returning servicemembers, veterans, and their families. The 
Department of Labor has various responsibilities under the Vow 
Act. However, per the Subcommittee's request my testimony today 
will focus on Section 211, the Veterans Retraining Assistance 
Program, and Section 233 that provides training and 
rehabilitation for veterans with service-connected disabilities 
who have exhausted rights to unemployment compensation under 
state law.
    I am particularly grateful for this opportunity to discuss 
DOL and VA's collaborative efforts to implement and administer 
these two provisions. The department is fully committed to 
working with our Federal partners to implement the Act.
    I would like to begin by first discussing Section 211 of 
the Vow Act, which establishes the Veterans Retraining 
Assistance Program for unemployed veterans between the ages of 
35 to 60. Eligible veterans have up to 12 months of retraining 
assistance when they pursue a qualified education and training 
program. The Vow Act specifies that VA and DOL will jointly 
administer the process for determining veterans' eligibility 
into the program. As a result, the two agencies are working 
together to make sure this implementation happens.
    Even before the Vow Act was enacted DOL and VA had already 
initiated planning to get a head start on implementation of 
this critical legislation. During the next 7 months DOL and VA 
will jointly manage and accomplish the following milestones. 
One, establish a memorandum of agreement and project charter 
that will delineate agency specific processes and 
responsibilities from initial intake through the completion of 
the program. Two, seek consultation on process design with 
veterans employment and training experts in state and local 
workforce agencies and other appropriate stakeholder 
organizations representing veterans' interests. Three, design, 
test, and implement customized application processing systems 
to manage DOL and VA's joint responsibility under the program. 
Four, develop, test, and implement enrollment and participation 
tracking systems to enable the agency to report program 
results. And five, develop and execute outreach and technical 
assistance strategies to both stakeholders and program delivery 
staff.
    As we complete the project charter and the memorandum of 
agreement we have identified two major operational 
implementation challenges which will need to be addressed over 
the next few weeks. First, we must find a way to connect and 
facilitate a successful interaction between the public 
workforce system and the VA's federally centralized GI Bill 
system. Second, we need to develop a mechanism to enable DOL 
and VA to appropriately access each other's administrative and 
performance data systems. Now VA and DOL are working together 
to address these issues to ensure the program is successful 
while protecting privacy and data sharing agreements.
    We are also working together to implement Section 233 of 
the Vow Act which provides additional benefits to disabled 
veterans that have exhausted their unemployment insurance (UI) 
benefits. The VA is primarily responsible for the 
administration of this provision. However, DOL will have a key 
role in developing the eligibility determination process. 
Currently there is no single unified system that can be used to 
determine whether a person has exhausted his or her rights to 
regular compensation under state law. As a result, we expect 
the state UI agencies will be involved in making the 
determination. DOL is exploring possible operational methods to 
successfully execute this provision.
    In addition to Sections 211 and 233 the Vow Act contains 
several provisions that DOL is working to implement in 
collaboration with other Federal agencies as needed.
    In conclusion, Mr. Chairman, both DOL and VA are committed 
to the full and speedy implementation of the Vow to Hire Heroes 
Act of 2011. We will keep you and the Subcommittee appraised of 
implementation milestones through regular briefings as 
requested.
    Members of the Committee, this concludes my statement. I 
would be pleased to answer any questions you may have. Thank 
you.
    [The statement of Ismael Ortiz, Jr. appears on p. 21.]
    Mr. Stutzman. Thank you. Mr. Coy, we will recognize you for 
five minutes for your testimony.

                    STATEMENT OF CURTIS COY

    Mr. Coy. Thank you, sir. Good morning, Chairman Stutzman, 
Ranking Member Braley, and Members of the Subcommittee. I 
appreciate the opportunity to appear before you today to 
discuss the progress made by the Department of Veterans Affairs 
toward implementing the provisions of Title II of Public Law 
112-56, the Vow to Hire Heroes Act of 2011. I am accompanied by 
Mr. Keith Wilson, our Director of VA's Education Service. My 
testimony will discuss the relevant sections of the legislation 
and explain how we plan to address them, with particular 
emphasis on Section 211.
    Secretary Shinseki has emphasized that this critical 
legislation will materially help our servicemembers and 
veterans with employment and transition. We are absolutely 
committed to executing in collaboration with other agencies and 
stakeholders all provisions of this law. Section 211, the 
Veterans Retraining Assistance Program, requires the Secretary 
of Veterans Affairs to establish a program of retraining 
assistance for eligible veterans in collaboration with the 
Secretary of Labor not later than July 1, 2012. The number of 
veterans who participate in the program may not exceed 45,000 
in fiscal year 2012, and 54,000 during the period beginning 
October 1 and ending March 31, 2014. Eligible veterans will 
receive Montgomery GI Bill Active Duty Chapter 30 full time 
benefit rate for up to 12 months. Training must be completed at 
a VA approved community college or technical school leading to 
an associate degree, certificate, or other record of 
completion. And the training must pertain to an occupation 
deemed by the Department of Labor to be in high demand. The 
training programs must begin on or after July 1, 2012 and the 
authority for VA to make payments ends on March 31, 2014.
    The law establishes a set of criteria that veterans must 
meet in order to participate in the program. Specifically, ages 
35 to 60, unemployed, not eligible for GI Bill assistance, not 
receiving VA disability compensation by reason of 
unemployability, and not enrolled in a Federal or state 
training program.
    The law requires that VA and DOL form a close partnership 
to successfully implement this retraining assistance program, 
including establishing a formal memorandum of agreement with a 
process for resolving disputes and appeals. We are close to 
agreement on concept of operations, project charter, and draft 
project schedule as well. We must track collaboratively 
participants, payments, and degrees awarded, and submit a final 
report on the impact of the retraining program.
    Prior to the President signing Vow, VA and DOL 
representatives met to discuss plans for implementing the 
provisions of Section 211. Included were senior level VA and 
DOL staffs, as well as IT staffs from both agencies. We 
identified high level roles, responsibilities, decision points, 
and discussed preliminary framework for an integrated master 
schedule for managing the implementation of this new program.
    VA also provided a high level summary of the claims and 
payment process from VA's perspective to initiate these 
collaborative discussions regarding information sharing and 
other logistical needs between the two departments. At follow 
up meetings, including an all day off site between VA and DOL 
just two days ago, we discussed how to successfully administer 
this program without duplication of effort and within the 
required time frame. Including existing benefit processing and 
payment systems within VA and one stop career centers and other 
veteran intake centers within DOL.
    A project of this magnitude and complexity requires 
multiple hand-offs between VA and DOL to include but not 
limited to conducting initial veteran intake; making DOL 
specific eligibility determinations on employment, high value 
career fields, etc.; ensuring that required information is 
collected and appropriately disseminated.
    We have also discussed mechanisms to be put in place to 
meet the law's extensive reporting requirements. While VA and 
DOL are on track and perhaps even a little bit ahead of 
schedule in implementation planning and tackling the more 
complex aspects of the law, we anticipate challenges associated 
with implementing this program. The law requires a rapid 
establishment of a broad partnership between agencies with 
vastly different operating structures and information 
technology systems. Provisions of this law, including wide 
ranging eligibility criteria, present IT and logistical 
challenges in addition to an increased workload the program 
generates. The aggressive time frame also magnifies the 
complexity of this effort. VA and DOL are working hard to 
mitigate these risks.
    To ensure this program's success, VA and DOL staff and 
leadership currently participate in weekly meetings to track 
progress, share information, and develop strategies. Internally 
VA staff and project leads meet daily to discuss implementation 
status and ensure we remain on track to meet this July 1 
deadline.
    The implementation of the Veterans Retraining Assistance 
Program will include outreach programs for the appropriate 
target population. We would like to thank the Committee staff 
for including VA in the creation of the Retraining Assistance 
Program. That collaboration has helped us mitigate some of 
these challenges in this program.
    Enhancements to VR&E or Vocational Rehabilitation. The new 
law will also enhance services provided by VA's Vocational 
Rehabilitation and Employment Program. The law extends VA's 
authority to provide vocational rehabilitation services to 
injured active duty servicemembers and promotes collaboration 
between VR&E and other organizations to provide additional 
services to aid veterans' transition to civilian employment. 
This law also allows VR&E to fund special employer incentives 
who did not previously qualify for on the job training. In 
addition, VR&E can now provide an additional 12 months of 
benefits to veterans who have exhausted their unemployment 
benefits, and is also now able to provide additional services 
to assist veterans returning to employment.
    In addition, Section 262 of Vow extended through September 
30, 2016 the provisions which limit to $90 the pension payable 
to certain recipients of Medicaid covered nursing home care, 
and protect that pension payment from being applied at the cost 
of the recipient's home nursing care. This limitation was 
previously set to expire on May 31, 2015. But because Section 
262 extends this existing authority VA has already implemented 
and we anticipate no delay in implementing this revised law.
    The same applies for Section 264. With the enactment of Vow 
funding fees for VA home loans were set at the same rate 
through September 30, 2016, the next 5 years. VA has already 
drafted and posted a new program policy circular which outlines 
the fees in effect. This circular along with other news updates 
about the bill's signing and the new fee rates was posted to 
the Home Loans Program Web site on the day after the President 
signed the legislation. Additionally, VA worked with Treasury 
to update FFPS with the current rate structure.
    Mr. Chairman, this concludes my statement. I would be 
pleased to answer any questions you or other Members of the 
Subcommittee may have. Thank you, sir.
    [The statement of Curtis L. Coy appears on p. 23.]
    Mr. Stutzman. Thank you, Mr. Coy. And I will begin the 
questions for the Committee here. Obviously I know that there 
is a lot of work in front of us and this is the first hearing 
that we are having. And Mr. Ortiz, you had mentioned the MOU. 
When do you expect the MOU and the operating agreement for the 
retraining provision between the two agencies to be finalized? 
You had mentioned that that is something you are working on. 
Can you give us any more specifics? And are there any other 
outstanding issues that may potentially slow that down?
    Mr. Ortiz. Yes, sir. As of right now the department 
anticipates that the MOA or the MOU will be finalized and made 
available to the Subcommittee in January of 2012, sir.
    We are working on it. VA and DOL, as Mr. Coy has already 
alluded to, are working on a daily basis not only internally 
but externally on making sure that we meet the obligations 
needed, sir.
    Mr. Stutzman. Do you believe, either one of you, that the 
departments have sufficient resources in fiscal year 2012 
budget to implement all provisions? And if not, or if so, I 
mean hopefully so, but if not any readjustments to your 2013 
budgets to meet those particular staffing issues?
    Mr. Coy. I will take that initially. Mr. Chairman, as you 
know I testified on this in July and we intimated then that we 
thought it would take about 130 FTEs to implement the bill. We 
currently are looking at all of our resources at this time. And 
we are also working with our department's Chief Financial 
Officer and they are talking with OMB as well to identify any 
resources that we may or may not need to implement that. But 
rest assured, sir, we are not waiting for any of those 
additional resources. As you can see from the very aggressive 
schedule that we put up already and the work we have already 
done, we are moving ahead with the implementation of this bill 
with or without those resources.
    Mr. Stutzman. Good.
    Mr. Coy. With respect to 2013, I am not at liberty to 
discuss what the department has put in their 2013 budget.
    Mr. Ortiz. Sir, I echo a lot of what Mr. Coy has said. The 
department is currently operating under short term continuing 
resolutions and we are working to implement related Vow Act 
provisions by relying on current funding and staffing 
resources. This definitely presents some challenges for us. But 
we are balancing our current strategic priorities to make it 
work.
    Mr. Stutzman. Very good. You know, as we did the hearings 
in Iowa and Indiana we heard from several veterans about the 
challenges that they have. And of all of the different bullet 
points of the legislation that was in the Vow to Hire Heroes 
Act the one that continually kind of popped out at me was the 
challenge that veterans have in translating their skills from 
military skills to a civilian workforce. And I know maybe this 
is getting a little bit further into the weeds on this 
particular issue, maybe too soon. But I guess that is one thing 
that we heard a lot about, and how do we help our veterans, how 
do they as they come out of the military translate those skills 
in their efforts, whether it is through resume, whether it is 
through communicating that to potential employers. Could you 
discuss that a little bit? Have you had any discussion about 
that? I think that is a real challenge for a lot of our vets.
    Mr. Ortiz. Mr. Chairman, I think that is probably one of 
the biggest challenges that we have. There are two pieces that 
play a big role. One is the fact that the veteran has to be 
able to show his or her values, as they come out. The second 
piece is educating the employer on the value of our young men 
and women.
    There are numerous programs, numerous things out there to 
help veterans translate their skills so that they can get that 
information to put it on their resumes, and give that 
information to the employer. In response to the second part, we 
are conducting employer outreach, having hiring fairs and 
things of that nature, to make employers aware of the value of 
our veterans. We are hoping to do that. And we are working, not 
only ourselves in DOL, but with DoD, with VA, and other 
departments throughout the government.
    One of the things that I want to tell you about is our Web 
site called My Next Move for veterans, created within our area 
to help that young man and woman actually translate their 
skills into a specific occupation, for example, servicemembers 
or veterans can input their MOS or their military occupational 
specialty, and translate what that specialty is. With my next 
move they are able to actually see what job availabilities 
there are where they are going to go. It also gives them 
information on what to put in their resume. You know, what the 
key phrases are if you will. How they need to include certain 
key words that employers will pick up on. So that is one piece.
    There are others services such as career one stops for 
veterans reemployment; career one stops are keys to success. 
Also the Department of Defense has Army credentialing 
opportunities, Navy credentialing opportunities, and Air Force 
certification. So there is a multitude of services. What we 
have done is to organize the services in the Veterans Job Bank, 
which is something that just came out, the President announced 
it a few weeks ago, there are a lot of those places where they 
can actually go. VA is part of it, DoD is part of it, and DOL 
is part of it, sir.
    Mr. Stutzman. Well, and I know you know this. I was just 
over in Afghanistan this past weekend and I had this question 
come up frequently. What is going to happen back home when I 
get home? And I know you are very aware of that. And to me that 
is a high priority, to help, it is a difficult challenge. But 
it has to happen one way or the other. And I think as a small 
business owner and coming from the business sector I think that 
it is important for small businesses. We have to connect them 
somehow. It is more difficult for them. Larger corporations 
obviously have larger staff and resources to develop these, to 
develop a program. But it is that communication and networking 
that we have to somehow organize so that those small businesses 
out there who will do most of the hiring for these, for 
veterans, and in translating our, or informing them of the 
skills and the abilities that our veterans have when they do 
come home. So I appreciate that.
    I yield to Mr. Braley.
    Mr. Braley. Thank you, Mr. Chairman. I want to continue on 
this line questioning because when we did our field hearings 
and many of the hearings we have had here in Washington, this 
whole issue of what I will call interoperability, which was the 
problem identified in the 9/11 Report, is the one that keeps 
coming up over and over again. And I appreciate your 
explanations, Mr. Ortiz, about what resources are available. 
But something you said caught my attention. And you said there 
is a multitude of them out there. And in fact that is part of 
the problem we have. Is that there is no uniform system, 
uniform language where these MOSs are translated into civilian 
workforce language. And at the hearing we had in Iowa, the 
field hearing, we had a lot of great employers, some of the 
biggest ones in Iowa, many of whom hire a lot of veterans. Some 
of whom are defense contractors and hire a lot of veterans who 
have those skill sets they are looking for in their civilian 
workforce. And as the chairman noted they have much more 
sophistication in trying to make that translation than a lot of 
small business owners who frankly do not even know where to go 
to try to make that determination. So I would be interested in 
both of your thoughts on what we can do to provide a 
centralized Rosetta Stone, if you will, that will help us 
definitively bridge this gap which most people believe is one 
of the most serious obstacles veterans have in marketing 
themselves to civilian employers.
    Mr. Coy. I will make a couple of comments, sir. VA is 
incredibly supportive of what DOL is doing with respect to 
this. I would agree with Mr. Ortiz that there are multiple 
systems out there. And I think our initial discussions have 
been let us take a look at what is out there now and do that 
sort of analysis. For example, VA just finished their program 
called VA for Vets, of which they also have a translator of 
MOSs of civil service jobs within VA. And so looking at those 
challenges of those various structures that are out there, VA 
has our VetSuccess.gov Web site, and that also has an MOS 
translator. I would agree that across the board veterans are 
looking out at all of these things and looking to us, DOL and 
VA, and DoD to some extent, to tell them which is the 
translator that we need to use. And so you have the veteran 
perspective. You also have the employer's perspective that you 
very articulated, such that employers do not know where to go 
into and take a look at these things. I get employers that come 
in to my office often and saying, this is what I do. I want to 
hire 300 vets. How do I go about doing that? Where do I find 
them and what do I do? So it is a unique challenge. And I would 
agree, and we are very enthusiastic about working with DOL to 
make sure that we come up with a good solution to this.
    Mr. Ortiz. Along those same lines, sir, I think one of the 
things that we have, all of us have come together around is the 
veteran job bank that the President announced that is a place 
where a lot of these things are housed. It is part of the 
National Resource Directory. And right there is one point where 
anyone, including employers, can put their information or 
access information. And our young men and women can actually go 
in there. We just got results about a week ago, where we wanted 
to see what was happening, and who went in there, and so on. 
Our servicemembers were in there. We went from zero when it 
opened up on the 7th of November and within 1 month we had over 
200,000 hits. And a lot of them, 49 percent were from the Army. 
And then the other services fell right in place. And they were 
talking specifically on things of that nature.
    But you know, there is also another piece to this. Our one 
stops have information. I am going to pass it over to Ms. Fiala 
to give you an understanding of what the one stop may have 
also.
    Ms. Fiala. Thanks. Very quickly, the one stop delivery 
system is a decentralized system, a partnership if you will 
between the Department of Labor as well as states and local 
workforce areas. And there are nearly 3,000 one stop career 
centers located around the United States, either full service 
or ancillary service centers. Plus there also is a virtual 
access to one stop services. And these centers are charged with 
providing information on job openings and the skills required 
for those jobs. They are required to provide information on how 
to translate, assess individual skills, and perhaps reshape 
resumes if you will to communicate to employers the skills and 
abilities of an individual to fill job openings.
    Mr. Braley. And let me just interrupt you for a second.
    Ms. Fiala. Yes?
    Mr. Braley. I mean, one of the things we keep hearing is 
that a lot of employers do not even use resumes any more. They 
use an online application process----
    Ms. Fiala. Exactly.
    Mr. Braley [continuing]. That is tailored to their 
employment needs to analyze a high number of applicants in a 
short period of time. And the reason why I bring this up is 
because it is a symbol of the changing nature of the workforce 
and how we have thought traditionally of helping people update 
their resumes when that may no longer be a priority to a lot of 
employers.
    Ms. Fiala. And that is true. And in those centers there 
computer resources there for everyone to be able to go online 
and respond to employers who have required applications be 
submitted online. And I wanted to go back a little bit to My 
Next Move for Veterans, because I think that it is an excellent 
example of an electronic service. In that case veterans can go 
into my next move and literally find jobs, they can figure out 
what military skills translate to civilian jobs, learn what 
they need and communicate to employers and actually apply for 
jobs. Because it drills down to actual job openings in 
communities.
    Mr. Braley. Thank you. I yield back.
    Mr. Stutzman. Thank you. Mr. Bilirakis.
    Mr. Bilirakis. Thank you, Mr. Chairman. I appreciate it. 
Thank you for holding this hearing. Mr. Ortiz, you mentioned in 
your testimony and we talked just now about the one stop career 
centers, and they will play a key role in implementing the 
Veterans Retraining Assistance Program. But it will be 
challenge to link the 3,000 centers with VA. We spend over, it 
is my understanding we spend over $165 million per year on the 
Disabled Veterans Outreach Program, the DVOP specialists, and 
then also the local veterans employment representatives. Their 
job is to find training and employment opportunities for 
veterans. Do you think they should play a central role in 
coordinating the validation of the employment status and 
providing eligible applicants names to a central source, either 
at the Veterans Employment and Training Services or at the VA? 
Should they play a central role?
    Mr. Ortiz. Well sir, I----
    Mr. Bilirakis. Mr. Ortiz, thank you.
    Mr. Ortiz. Yes, sir. Through the normal intake process that 
is conducted by the one stop staff, sir, veterans are 
identified. And if they meet the eligibility requirements they 
go to our DVOP and LVERs depending on their needs. If there is 
an absence of a DVOP and LVER the actual one stop personnel 
work on that. As for the question will they play a major role 
in this effort? Am I understanding your question, sir?
    Mr. Bilirakis. Yes, sir.
    Mr. Ortiz. Yes, sir, they will. Because no matter what in 
the 2011 piece when the individuals come in from 35 to 60 years 
old they need to have somebody to give them counseling. If they 
are a veteran they are going to be referred to our DVOP and 
LVERs directly. I want to pass this question over to Gerri.
    Mr. Bilirakis. Please. Please.
    Mr. Ortiz. Because she can tell you a little bit more as 
far as the connectivity, sir.
    Ms. Fiala. I guess I would just add, because I think that 
is a good description, is DVOPs and LVERs are generally located 
in one stop career centers. And a veteran would walk into a 
reception area. And if they identify themselves as a veteran, 
they are going to be referred to DVOPs and LVERs for 
specialized services and counseling. There may be some centers 
where there is not direct access to a DVOP or LVER. In that 
case they would be served by, through the one stop staff to 
ensure that their needs are addressed right away.
    We have a priority of service within the one stops for 
veterans, regardless of whether they are in the age group which 
is targeted by Section 211 or in general. So that when a 
veteran walks into a one stop they will receive priority of 
service.
    Mr. Bilirakis. Thank you very much. Mr. Coy, in your 
testimony you mentioned that your primary outreach plan for the 
Veterans Retraining Assistance Program included using the G.I. 
Web site and Facebook page. While these are great tools, how 
are you going to reach out to the veterans, the targeted 
population is between 35 and 60, those who may not be high tech 
and do not use Facebook or the internet. Do you have a plan?
    Mr. Coy. Yes and no. I would like to go back to something 
that Mr. Ortiz mentioned. We also with respect to your 
questions about DVOPs and LVERs, we have DVOPs and LVERs 
colocated in each one of our 57 regional offices within VA. And 
our VR&E counselors work very, very closely with those DVOPs 
and LVERs. So we are already plugged into that DOL, DVOP, and 
LVER network.
    With respect to the communication plan, we have a draft 
communication plan. But we plan on not only using, you know, 
our GI Bill Web site, our GI Bill social media sites, we also 
have our state approving agencies, we have VSOs in our 
communication plan. We have the approved community colleges. We 
have the non-college degree program facilities. As I mentioned, 
we have 57 regional offices. We have over 800 VA voc rehab 
counselors that are going to get the word out. We have 147 VA 
medical centers that we are going to leverage and that 
infrastructure. Our 200 VA VETS Centers. Our 240 plus community 
based outpatient clinics. We are including this program as 
well, updating our TAP presentation. We have a call center that 
we are also going to be updating to ensure that our call center 
representatives have that information. We are going to push 
emails out through our ebenefits system. We are going to also 
do what we can to leverage Mr. Ortiz' 3,000 one stops that they 
have. So the yes and no question is we have a draft 
communication plan. We plan on leveraging all of those 
infrastructure items as well as not just the GI Bill and those 
social media sites.
    Mr. Bilirakis. What about a national advertising campaign?
    Mr. Coy. We do not have that in our current program budget, 
if you will. But we certainly would love to have something like 
that and we will look at that. As I mentioned, our 
communication plan right now is in its draft format.
    Mr. Bilirakis. Okay. Very good. I would love to work with 
you on that.
    Mr. Coy. Yes, sir.
    Mr. Bilirakis. Thank you very much, Mr. Chairman. I yield 
back.
    Mr. Stutzman. Okay, thank you. Mr. Walz.
    Mr. Walz. Well, thank you Mr. Chairman and the Ranking 
Member for holding this, and thank you to all of you for the 
work with veterans and the commitment we are all on this team 
together and trying to get it right. I think some great points 
got brought up. I am going to go back to, I know that I am a 
broken record on this, and it is once again the lack of 
seamless transition. Once again we do not have armed services 
folks here with us, or talking with them on that. I bring up we 
recently had the honor of hiring one of our heroes in our 
office, Brendon Gehrke sitting behind me, a Marine that just 
got out 2 months ago, did his TAP program. No representative 
from the VA at his TAP. So I know that it is still falling 
through the cracks. They are not getting the tools. I think, 
the thing I noticed in here that I think is the most effective, 
and I would argue that this is again, your efforts are going in 
all the right directions I believe. But we have to figure out 
this seamless transition piece that every year we come back to. 
But this idea of allowing servicemembers to begin the process 
before they are actually out, I have a story in Minnesota, the 
34th Division, the Red Bulls, have been deployed again. They 
are in Iraq right now as part of the final wrap up there, and 
Kuwait. The Department of Economic Development, along with the 
Veterans, the Commissioner and the Veterans Affairs in 
Minnesota, has identified every single person on that 
deployment status, work status. They have identified 511 who 
would probably be looking for work on the way back. They have 
matched them up to employers in Minnesota. And by the time 
January comes along they will have 100 percent of people placed 
into the community they are going back to when they are done. 
Now we do not have to pay unemployment benefits. We do not have 
the drop off. We have some security for the family and we know 
it is coming.
    I think it is possible with some technology and some 
commanders' initiative on this for us to implement that. I just 
thought I would get maybe some of your folks feedback on that. 
And we know people make transitions. They get out. They may 
move to another state. But especially with our Guardsmen, I 
think we are going to have a zero percent unemployment on a 
returning brigade combat team. And that is pretty impressive. 
And it saves money.
    So I do not know if you have any insight on that, if there 
are more ways we can do that, or if this issue of seamless 
transition would help us if we did more?
    Mr. Ortiz. I think you hit the nail on the head on a few 
things. The biggest thing is the TAP. The Vow Act, actually 
making TAP mandatory has probably given us the best tool that 
we can give to our returning servicemembers, and our Guards and 
Reservists. This is because it gives them at least the basic 
tools. The basic toolkit, if you will, for transitioning 
servicemembers to be able to walk out, get what they need, go 
to the right places and get the information that they need in 
order to be successful in finding a job. We have been working, 
including Mr. Coy and myself on the task force to do a lot of 
these things that you mentioned.
    Mr. Walz. So you think this is, like with Brendon, and that 
is exactly what he mentioned, that his folks did not know about 
the tools. They are out there. They do not search the VA Web 
site. They do not know anything about the VA. They are 24-year-
old Marines coming out, or whatever. And this new, you think 
that now he should be one of the last ones that miss that 
opportunity, and this next group should be hitting it?
    Mr. Ortiz. Sir, we hope that is the truth. And I think we 
are heading in the right direction. As you know, I have a 
vested interest in that myself. It is important for our young 
men and women to have that capability. I think one of the 
biggest things that we are seeing right now, that the services 
are also realizing, that mandatory TAP, at least the two pieces 
are important. The VA benefit piece, and the transition 
employment workshop. Those two pieces are very, very important.
    Mr. Walz. Do you think culturally they are getting that, 
Mr. Ortiz? That the services are getting that? Because I mean I 
know it is, this is kind of hard for them. As a sergeant major 
for me, I am telling my first sergeants do whatever you can to 
get them to reenlist. And my concern was to keep them in 
uniform. But I also cared when they left. But I mean, we put a 
lot of pressure on them to fill their numbers, keep them up. 
They cannot spend a lot of time preparing to go work at Joe's 
Roofing, or whatever it is. Are we getting that right, and 
giving them time and the resources? I am just curious on your 
insight of, you talk about the Department of Labor. How about 
the service?
    Mr. Ortiz. Sir, I tell you what, I spent the last 2 weeks 
in different summits and speaking to different services. Both 
myself and Curt have had some exposure on this directly. The 
services do get it. They understand it. The Vice Chief himself 
gets it. And says you commanders are going to do what needs to 
be done. You sergeant majors, go out there and take care of the 
troops like you are supposed to.
    We are living in a time when we are bringing back our 
troops. We need to give them the tools they need to be 
successful. And it is happening, sir. It is happening very 
much. And the Vow Act is going to help implement a lot of those 
things directly.
    Mr. Walz. Well, again, thank you for your commitment to 
veterans. Thank you for coming and updating us and leading 
forward on this. I yield back, Mr. Chairman.
    Mr. Stutzman. Thank you. Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Chairman. Mr. Coy, first of all 
thanks for providing the timelines.
    Mr. Coy. Yes, sir.
    Mr. Johnson. Can you give us some additional information on 
the timeline of events for implementation of the training 
provision, such as the first checks going out in August?
    Mr. Coy. Absolutely. As I think you have it up there, and 
you may have it in front of you, we started very aggressively 
working through the timeline. One of the questions I had 
earlier was why are you paying in August and not sooner, if you 
will? We cannot start any programs until 1 July. So August, 
once we got the information, we would be able to reimburse and 
start paying in August, that is the point of August, or the 
timeline for the August pay.
    This notional schedule as we walk through it, you can see 
that we believe that in the next few weeks we are going to be 
able to finalize the MOUs, the charter, the schedule. It is a 
breathing document. This is just sort of a snapshot of those 
key dates that we have in there. But looking at the various 
systems that you see on there, whether they be BDN, VA1s, ECAP, 
the generated letters, we are all shooting toward starting to 
accept the requests for the eligibility determinations by May. 
And starting the payment system procedures, we are going to use 
the same payment system that we currently have for Montgomery 
GI Bill. We pay currently about 180,000, I think last year if 
my numbers are correct, 185,000 service, or veterans, received 
Montgomery GI Bill payments last year. So adding 45,000 this 
year on an existing payment system we think will lessen and 
mitigate some of those risks.
    So I would be happy to answer any of the specific 
questions----
    Mr. Johnson. That is okay. You have answered, and that is 
good. Can you explain how employment service staff will provide 
retraining and VR&E applicants' names to the VA?
    Mr. Coy. That is one of the procedures and one of the pass 
throughs that is one of the complex problems we have not 
figured out yet, to be quite frank. We have begun those 
discussions but I do not have an answer right now.
    Mr. Johnson. Do you have a time frame to resolve that?
    Mr. Coy. I do not have that in front of me, but I will be 
happy to get back to you, sir.
    Mr. Johnson. Okay.
    Mr. Coy. And get you that information.
    Mr. Johnson. All right. And I would appreciate that. During 
implementation of the Post 9/11 Act VA set up a system where 
users could sign up and get email alerts when more information 
on the implementation of the Post 9/11 GI Bill was posted on 
the GI Bill Web site. Do you have similar plans for this 
retraining provision?
    Mr. Coy. I will let Keith answer that question. He was our 
Post 9/11 GI Bill implementer. If anybody knows anything about 
implementation of Post 9/11 it is Mr. Wilson.
    Mr. Wilson. Thank you for the question. The short answer is 
yes. We have that capability built into our existing systems. 
We have what we refer to as right now web capabilities through 
our internet web page, and we create different topics and 
individuals can sign up for updates on those topics. We plan on 
doing the same type of procedure for this piece of legislation 
as well, yes.
    Mr. Johnson. Okay. What, or how will you reach out to VR&E 
applicants or participants about the new eligibility that is 
provided under the Vow Act?
    Mr. Coy. I would suggest that is another one of those key 
challenges. It is both a technology challenge and it is a pass 
over the transom challenge between us and DOL. We have begun 
those discussions but we, I do not have an answer right now, 
sir. But we will make sure that the Committee and your staff is 
updated as we go down that path.
    Mr. Johnson. Okay. One more, one more, Mr. Coy. Can you 
please tell us why the plan to implement Section 233 that 
provided additional VR&E benefits on June 12, 2012, when the 
deadline for implementation is listed in the law as June 1, 
2012?
    Mr. Coy. That is meant to be 2012, not June 12.
    Mr. Johnson. Okay.
    Mr. Coy. And so we hope and expect to be ahead of this 
schedule. But quite frankly, sir, what we wanted to do is lay 
out the steps that we needed to accomplish for each one of 
those steps to implement the law. And as you can see, we expect 
to develop all of those verification procedures next month. We 
expect to develop the training between January, February, and 
March. Deliver that training and policy to the field 
personnel----
    Mr. Johnson. So you are anticipating it all being there 
prior to June 1?
    Mr. Coy. Absolutely, yes, sir.
    Mr. Johnson. On or before June 1? Okay.
    Mr. Coy. And the June 12, June 1-2, was June of 2012.
    Mr. Johnson. Okay. All right. Great. All right, that is all 
the questions I have, Mr. Chairman.
    Mr. Stutzman. Thank you. I have just got a couple of follow 
up questions. And then if anybody else wants to ask any 
additional questions we will do that. But for Mr. Ortiz, would 
veterans who are no longer looking for work and are considered 
not in the labor market be eligible for the retraining 
provisions?
    Mr. Ortiz. Yes, sir. If they are unemployed, yes sir, they 
would be.
    Mr. Stutzman. Okay. All right. And then can you kind of 
just give us just a minute or two on, just how is this all 
going to work? Just broad strokes. We all know this is just 
getting started here. But kind of just how do you foresee this 
starting? And hopefully by the time we have the next hearing 
some of the things that are hanging out there that you 
mentioned, where you might be at?
    Mr. Coy. I will do a quick intro and then pass it over to 
Keith who has helped us develop the entire project plan. I will 
just make a quick statement with respect to implementation of 
this particular law. I have been a senior executive within the 
government for over 11 years now. I served in the Navy for 24 
years. I do not think I have ever been associated with anything 
that between two government agencies that we have been more 
proactive in going after this for the common cause. There is no 
one up and down the chain in each agency that is not a firm 
believer in what we are trying to accomplish here. So the 
enthusiasm of the boots on the ground, from the senior staff 
down to the IT specialists, are all on board.
    Keith can, I will ask Keith to walk through the schedule 
and how he is physically doing it. But as I indicated earlier 
we are having daily hot washups, weekly hot washups. We are 
quite frankly tired of seeing each other, because we are 
meeting so much.
    Mr. Stutzman. You will get a Christmas break here 
hopefully----
    Mr. Wilson. Let me start by thanking the Committee again 
for engaging us from the technical perspective. Engaging us 
early on allowed us to leverage a lot of the existing systems 
we have in place right now and that has made the lift much more 
manageable on this. We have had a lot of discussions over the 
past couple of weeks with Department of Labor. Our discussions 
have gone beyond the 50,000-foot level and are really more at 
the granular level right now. The overall manner in which we 
see this process working is number one, a web portal that would 
be stood up by the Department of Labor that will be completed 
by the individuals at the one stop centers. The one stops will 
be the initial intake point of contact for this. The 
information that will be collected there will meet the needs of 
both VA and Department of Labor. We do not expect for the 
veterans to have to apply once again for VA benefits when we 
are at the point of making our eligibility determinations. So 
we will have that single piece of information. That portal that 
Labor is setting up will come through a new gateway we are 
establishing within our image management system now, which is 
how we process and manage all of our education claims right 
now. That pass through is going to put that work into queue in 
front of the claims examiners that work our education claims 
right now.
    Once Department of Labor has done their determinations, the 
person is unemployed, etcetera, etcetera, etcetera, information 
is transmitted over to VA that allows us to make our 
determinations, processing it as an education claim just like 
any other education benefit we administer.
    Leveraging that capability then allows us to use the 
internal interfaces we have now between our processing systems 
and our payment systems. So we will simply process those 
claims. For those people that we determine eligible, we already 
have the mechanism to transmit information into our payment 
system and then into Treasury. So that will be the vehicle that 
payments will use to get out the door.
    Mr. Stutzman. Thank you.
    Mr. Ortiz. Sir, I cannot say anything more than what Mr. 
Coy said as far as the amount of collaboration that has 
happened between our two agencies has been nothing less than 
outstanding. As Mr. Coy and I are both military members, we are 
looking at it almost like an operational plan. We have been 
given a task and we are doing what needs to be done to make 
sure that task is accomplished. We are meeting and on his side 
he is meeting on an internal basis constantly, we are doing the 
same thing on our side. And the idea of being able to share 
this information without any kind of prejudice or restrictions 
in any way, shape, or form. We are here to do one thing and one 
thing only, that is to make sure that we take care of our 
troops. Bottom line. To make sure that we do what we need to do 
in order to make sure that they get the tools they need to be 
successful. So that when they come out they do not have to 
worry about having to look for a job, or having to pay a 
considerable amount of unemployment compensation in order for 
services, while they look for a job.
    So yes, there are some challenges. There are some things 
that we need to do. We need to be able to do our systems, our 
technology pieces, and so on. But we are, we are working on it. 
You asked, Mr. Chairman, how is this going to turn out? This is 
going to be successful. As far as we are concerned it is going 
to do what needs to be done. It may take some time, and it may 
take some effort, and hopefully you all will be patient in how 
we accomplish this. But we have a lot of great people that are 
doing what needs to be done to make it happen.
    I am going to pass it over to Gerri to give you an idea of 
the intensity with which we have been working on this.
    Ms. Fiala. Thank you. I will not add much. I think you 
actually have heard the intensity and the commitment voiced by 
both of the agencies. I would just simply say to begin to make 
this work we are going to reach out to all our respective 
stakeholders to make sure that both the veterans that are 
targeted by the Vow Act, as well as the employers, who need to 
be informed and encouraged to hire them, have the information 
about the services and about how they can benefit from what you 
have established. We will be providing clear guidance on both 
sides of the system. We are going to promote this with all of 
our employer partners, from the United States Chamber of 
Commerce on down to make sure that everyone gets the 
information.
    You have heard that there are some challenges. But our 
staff actually met Tuesday for almost 8 hours to begin to work 
out the technical challenges so that our systems can talk to 
each other and can make sure that there is one form to be 
filled out, there is one set of information and that it does 
flow from one agency to the other. There will be challenges 
because we have a decentralized public workforce system and a 
highly centralized system for the GI Bill. And we are going to 
ensure that we can share the data and respect the privacy, both 
of the individuals who are applying and can benefit from the 
system, as well as the security concerns for the agencies.
    Mr. Stutzman. And I appreciate that from all of you. 
Because, as Mr. Walz always says we cannot afford not to get 
this right. We have to get this right. And I know you all know 
that. And you know, expectations are high for all of us. And we 
have to answer to people back home and I know you, you are 
answering to not only our vets but to this committee. And we 
want to make sure that we are here to help but also to hold 
everybody accountable as well to make sure that this is done 
right. Because these guys and gals are coming home, and we want 
to make sure that they are coming home to the best situation 
that we can possibly provide. So, Mr. Braley.
    Mr. Braley. Mr. Wilson, I understand you are going to be 
leaving us soon. And we want to thank you for the tremendous 
work that you have done on behalf of our veterans. And I know 
everyone on the Committee joins me in wishing you the best in 
everything you do in the future. And I know that a lot of times 
the work that you and others do is unseen by our Nation's 
veterans and underappreciated. But I just wanted to acknowledge 
the tremendous efforts you have made. We really appreciate it.
    Mr. Wilson. Thank you.
    Mr. Braley. Mr. Ortiz, I just have a question about the 
next item on the timeline which it seems to be allocated to 
your agency, and that is the uptake analysis of the top ten 
states with the highest number of unemployed veterans with a 
timeline of February, 2012. Can you give us some sense of where 
we are heading into next year with that coming up on the 
horizon?
    Mr. Ortiz. Sir, I will get back to you on it. Sir, we are 
working on the different angles and I will make sure I get back 
to you for the record, sir.
    Mr. Braley. Okay. The other question I raised in my opening 
statement, and I will pose for you and Mr. Coy both, and that 
is the VR&E benefits and the alarming counselor to veteran 
ratio that we have had in the past that I mentioned of one to 
136. My question to both of you is how are we dealing with that 
ratio moving forward? Do we have enough counselors? If not, 
what are we going to do about it? Are we looking at ways to 
maximize the benefits of those existing counselors through 
programs like telecounseling? And what are the outreach 
programs that we are targeting?
    Mr. Coy. I will take that first, if that is all right with 
Mr. Ortiz. For VR&E counselors, this fiscal year in 2012 we 
have allotted an additional 110 VR&E counselors, mostly 
stationed at our IDES sites. And so we are on our way to ensure 
that we can try and reduce that caseload with respect to that. 
I cannot speak for the fiscal year 2013 and on budgets, if you 
will. But we believe that with the preplanning of the IDES 
sites and the collaboration between the services, our IDES 
coordinators and Ruth Fanning's VR&E folks, we should have most 
of those concerns taken care of.
    Mr. Braley. Thank you.
    Mr. Ortiz. In our case the flexibility of our DVOPs and 
LVERs to be able to work with VA and their VR&E counselors is 
probably going to be the most effective piece that we have 
right now, sir.
    Mr. Stutzman. Okay. Mr. Walz? Okay. All right. Well that 
concludes the questions. I just I would like to make just one 
follow up to Mr. Walz' suggestion about what they are doing in 
Minnesota in identifying those who are unemployed. I think that 
is something that we could follow up on. I appreciate that 
suggestion. And it is something that we could work on right 
away in the near future. I think that is, it would be valuable 
for us to look at that, and also for you all as well.
    I want to thank you all for being here today. And I know we 
will be meeting again soon. And I appreciate your input and the 
work that you are doing. As I mentioned earlier, this is 
important to all of us and especially our veterans. And so at 
this point I would like to ask unanimous consent that all 
members have five legislative days to revise and extend their 
remarks on today's hearing. Hearing no objection, so ordered. I 
want to wish you all a happy holiday season, and again I know 
we have veterans that are coming home for the holidays 
thankfully and we cannot wait until they are home safe and 
sound. So at this point, if there is no further business, we 
are adjourned.
    [Whereupon, at 11:14 a.m., the Committee was adjourned.]



                            A P P E N D I X

                              ----------                              

     Prepared Statement of Honorable Marlin A. Stutzman, Chairman, 
                  Subcommittee on Economic Opportunity
    Good morning. We are here today to begin this Subcommittee's review 
of the implementation of Public Law 112-56, the Vow to Hire Heroes Act 
of 2011. This will be just the first in a series of oversight hearings 
we will hold through July of next year.
    This bipartisan and bicameral legislation was signed into law by 
President Obama in November and is the culmination of many months of 
work by this Committee to reduce unemployment among veterans. These 
efforts began with oversight hearings by this Subcommittee last winter 
which led to the introduction and passage of H.R. 2433, the Veteran 
Opportunity to Work Act of 2011 earlier this fall.
    The major provision of both H.R. 2433 and the Vow to Hire Heroes 
Act is the temporary extension of Montgomery GI Bill benefits to 
eligible veterans to receive up to 1 year of training at a community 
college or technical school for in-demand occupations. Eligible 
veterans would have to be between the ages of 35 and 60, be unemployed, 
and not have eligibility for other VA education programs.
    Latest numbers from the Bureau of Labor Statistics show that there 
are an estimated 531,000 unemployed veterans between the ages of 35 and 
64. This represents about two thirds of all of unemployed veterans in 
this country. It is this population that this program is intended to 
help, and it is our obligation to ensure that VA and VETS meet the July 
1, 2011 implementation deadline so this provision can help this group 
of aging veterans as quickly as possible.
    While there are many other worthwhile provisions in the Vow Act, 
the implementation of this provision and the provision extending 
vocational rehabilitation benefits to veterans who have passed their 
delimiting date will be the Subcommittee's focus.
    While I am aware that the legislation was only signed into law a 
few weeks ago, I am anxious to hear about the progress VA and DOL have 
been making on implementation and their plans for future collaboration 
as required by law.
    I can't stress enough that the proper implementation of this law is 
extremely critical, and as such I want to put both agencies on notice 
that this will be this Subcommittee's top priority in the next session 
of Congress and we need your help in identifying obstacles and problems 
as soon as possible so we can work them out and get this law 
implemented.
    Together we can ensure that our veterans are not cheated out of 
this wonderful benefit because of bureaucratic delays or hurdles. Our 
veterans deserve and will receive nothing less.
    I thank our witness for being here today to inform us on the 
progress the departments have made, and I now yield to the 
distinguished Ranking Member from the great state of Iowa for any 
remarks he may have.

                                 <F-dash>
            Prepared Statement of Honorable Bruce L. Braley,
                       Ranking Democratic Member
    I'm very proud to have worked with this Committee to pass the Vow 
to Hire Heroes Act. I am optimistic this legislation is a step in the 
right direction for putting our veterans back to work. In August, I 
introduced the Combat Veterans Back to Work Act, which provided tax 
incentives to employers to hire veterans and recently returned 
servicemembers. I am pleased that the Vow Act includes tax incentives 
for hiring veterans that I've been pushing for all year.
    Additionally, in October, I joined Chairman Stutzman to host two 
field hearings--one in Iowa and one in Indiana--that focused on 
veterans' unemployment. One of the things that came up at these 
hearings was the need to help returning servicemembers translate their 
military skills to civilian skills, which is why I am pleased that the 
Vow Act includes veterans retraining. This will help ensure that they 
have the skills necessary to be competitive in today's tough job 
market.
    Section 211 of this bill, which focuses on retraining, has an 
implementation date of July, 2012. This new program will be very 
beneficial for older veterans that have exhausted their educational 
benefits or other available VA vocational programs. It is my hope that 
the Department of Veterans Affairs and Department of Labor have already 
begun discussions on how to jointly carry out this program and 
administer this section as scheduled. This interagency program will 
help change the lives of 99,000 unemployed veterans.
    Section 233 of the Vow to Hire Heroes Act provides disabled 
veterans up to 12 months of additional Vocational Rehabilitation and 
Employment (VR&E) benefits. In the past we've had hearings and 
discussions surrounding VR&E counselors' workload. During our March 
hearing we expressed our concerns with the VR&E veteran-to-counselor 
ratio of 1:136.
    I look forward to hearing from our witnesses today on what steps 
will be taken to ensure that there is adequate staff at VR&E who are 
prepared to handle proper implementation of this section. I hope the VA 
is ready to discuss how they will prepare to handle additional workload 
without sacrificing the counseling services veterans need.

                                 <F-dash>
 Prepared Statement of Ismael Ortiz, Jr., Acting Assistant Secretary, 
  Veterans' Employment and Training Service, U.S. Department of Labor
    Good morning Chairman Stutzman, Ranking Member Braley, and 
distinguished Members of the Subcommittee. Thank you for your 
invitation to participate in today's hearing on the implementation of 
the Vow to Hire Heroes Act of 2011 (Vow). This legislation is an 
integral part of President Obama's efforts to ensure that America 
fulfills its obligations to our returning servicemembers, veterans, and 
their families. The Vow Act also incorporates several important 
components of the American Jobs Act, including the Wounded Warrior and 
Returning Heroes Tax Credits. The bill garnered broad bipartisan 
support in Congress and the President signed it into law on November 
21, 2011.
    Although recent data from the Department of Labor's Bureau of Labor 
Statistics shows that payrolls have climbed and the unemployment rate 
has dropped to a 2-year low, we need faster economic growth to put 
Americans back to work. Moreover, high unemployment rates among 
veterans remain an area of concern. The Vow Act is intended to lower 
the unemployment rates of veterans by providing a broad array of new 
and expanded services to assist them in acquiring the enhanced skills 
needed to compete in today's labor market and thus facilitate veterans' 
return to work.
    The Department of Labor (DOL) has various responsibilities under 
the Vow Act; however, per the Subcommittee's request, my testimony 
today will focus on section 211, the ``Veterans Retraining Assistance 
Program'' (VRAP), and section 233, ``Training and Rehabilitation for 
Veterans Who Have Exhausted Rights to Unemployment Compensation Under 
State Law''. I am particularly grateful for this opportunity to discuss 
DOL's collaborative efforts with the Department of Veterans Affairs 
(VA) to implement and administer these two provisions in a coordinated 
and cost-effective way that will facilitate eligible veterans' access 
to the valuable services available under the law.
    The Vow Act recognizes that providing comprehensive services to 
veterans requires Federal agencies to work together, leverage 
collective resources, and streamline processes. The Department is fully 
committed to working with our Federal partners to implement the Act. We 
believe that this commitment is demonstrated not only by DOL and VA's 
recent collaboration on sections 211 and 233 of the Vow, but also by 
other ongoing efforts in support of our Nation's veterans. Therefore, 
before I turn to a discussion of the Vow Act, I want to update you on 
some of our other recent work with the VA.
    On November 7th, 2011, the President and DOL announced the ``Gold 
Card Initiative'' which offers a set of intensive services to post-9/11 
veterans through DOL's nationwide network of approximately 3,000 One-
Stop Career Centers. The goal of this initiative is to jump-start the 
job search process for post-9/11 veterans through enhanced in-person 
services that help them reconnect to the civilian labor force. In order 
to maximize outreach, DOL partnered with the VA to ensure that the 
promotion of the Gold Card was visible through both DOL and VA 
resources, including posting easy-to-access links on our respective Web 
sites.
    On the same day, the Administration launched a new Veterans Jobs 
Bank, an easy-to-use tool to help connect veterans looking for jobs 
with employers looking to hire them. It already allows veterans to 
search nearly one million job postings and is still growing. In a few 
easy steps, employers can make sure the job postings on their own Web 
sites are part of this Veterans Jobs Bank. The Veterans Job Bank is 
found at http://www.nrd.gov/, the National Resource Directory, which 
has been a successful joint effort and example of past collaboration 
among DOL, VA, and the Department of Defense.
    Interagency collaboration is an essential component in ensuring 
that the public workforce system effectively implements the 
requirements of this legislation. For example, DOL plans to consult 
with the VA in preparing guidance related to the recent revisions to 
the Post-9/11 GI Bill. This guidance will be issued to the One-Stop 
Career Center line staff and Disabled Veterans Outreach Program 
Specialists and Local Veterans Employment Representatives so that they 
are familiar with these revisions. The guidance will also help them tap 
into the resources made available in the GI Bill to better direct 
veterans to training and other such services critical to helping 
veterans attain the credentials necessary to secure employment.
The Veterans Retraining Assistance Program
    Section 211 of the Vow establishes the Veterans Retraining 
Assistance Program (VRAP) for unemployed veterans aged 35 to 60. The 
VRAP, which entitles eligible veterans to retraining assistance for up 
to 12 months when they pursue a qualified program or training, must be 
up and running no later than July 1, 2012. The Vow Act specifies that 
VA and DOL will jointly administer the process for determining 
veterans' eligibility for VRAP. Specifically, DOL will be responsible 
for determining applicants' initial eligibility based on age, 
employment status, and previous participation in other job training 
programs. Following DOL's determination, the VA is required to certify 
applicants based on several additional criteria, such as the conditions 
of the applicants' discharge and eligibility for other forms of 
assistance. Other DOL-specific requirements include identifying the 
high-demand occupations that will be the focus of VRAP training, and 
contacting veterans within 30 days of completing or terminating the 
VRAP training to inform them of the employment placement services that 
are available to them. The Vow Act also requires DOL to work with VA to 
establish a process for resolving appeals of eligibility determinations 
made by the agencies. DOL and VA are still discussing the processes and 
systems that will be used to carry-out the VRAP program but it is very 
likely that the One-Stop Career Center System will play a key role.
    Before the Vow Act was enacted, DOL and VA had already initiated 
planning to get a head start on implementation of this critical 
legislation. During the next 7 months leading up to the July 1, 2012 
deadline for the commencement of VRAP, we will accomplish the following 
milestones that will be jointly-managed by DOL and VA:

    <bullet>  Establish a Memorandum of Agreement and a Project Charter 
delineating agency specific processes and responsibilities covering 
participants' initial intake through completion of the VRAP program;
    <bullet>  Seek consultations on process design with veterans 
employment and training experts in state and local workforce agencies 
and other appropriate stakeholder organizations representing veterans' 
interests;
    <bullet>  Design, test and implement customized application 
processing systems to manage DOL and VA's joint responsibilities under 
the VRAP program;
    <bullet>  Develop, test and implement enrollment and participant 
tracking system(s) to enable the agencies to report program results; 
and
    <bullet>  Develop and execute outreach and technical assistance 
strategies to both stakeholders and program delivery staff.

    We have identified two major operational and implementation 
challenges which will need to be addressed over the next few weeks as 
we complete the Project Charter and Memorandum of Agreement. First, we 
must find a way to connect, and facilitate a successful interaction 
between the public workforce system--a decentralized, nationwide 
network of approximately 3,000 One-Stop Career Centers managed though a 
combination of Federal, state, and local partnerships--and the VA's 
Federally-centralized GI Bill system. Second, we need to develop a 
mechanism to enable DOL and VA to appropriately access each other's 
administrative and performance data systems, so that we can ensure the 
successful execution of the VRAP, while also protecting the agencies' 
respective privacy and data sharing agreements and requirements.
Expanded Benefits for Veterans with Service Related Disabilities
    Section 233 of the Vow amends current law to allow individuals with 
service-connected disabilities who have exhausted Unemployment 
Insurance (UI) benefits under state law to seek assistance from 
additional rehabilitation programs specified in the legislation. The VA 
is primarily responsible for the administration of this provision; 
however, DOL will have a key role in developing the eligibility 
determination process. To avail themselves of the assistance provided 
for under section 233, applicants must have exhausted their rights to 
regular compensation under State law and must not be receiving 
unemployment compensation under Canadian law. Because there is 
currently no single unified system that can be used to determine 
whether a person has exhausted his or her rights to regular 
compensation under State law, we expect that State UI agencies would be 
involved in making this determination. DOL is exploring possible 
operational methods to successfully execute this provision. In 
particular, we are examining the process utilized in other Federal 
benefit programs, such as the Temporary Assistance for Needy Families 
(TANF) and Supplemental Nutrition Assistance Program (SNAP), that would 
allow state UI agencies to be reimbursed for the workload in making the 
necessary determinations.
    Additionally, while we can determine if someone is receiving 
unemployment benefits based on wages in both the United States and in 
Canada, we do not, at present, have the ability to determine if an 
individual is eligible for Canadian unemployment benefits solely based 
upon the wages the person earned in Canada. DOL anticipates that we 
will need to review Canadian confidentiality laws to ascertain if there 
are any existing, reasonable methods to reliably obtain that 
information.
Other Provisions of Note
    In addition to sections 211 and 233, the Vow contains several 
provisions that are designed to enhance the Department's current 
activities and programs targeted towards veterans. These enhancements 
include, but are not limited to: (1) required participation in the 
Transition Assistance Program, which designed to increase veterans' 
awareness and utilization of the employment, education, and training 
programs that are available to them; (2) increased veterans' access to 
apprenticeship and pre-apprenticeship programs; (3) clarified priority 
of service reporting requirements within the public workforce system; 
(4) identification of skill equivalencies between military and civilian 
occupations; and (5) amendment and expansion of the categories of 
veterans eligible for the Work Opportunity Tax Credit. The Department, 
working in collaboration with other Federal agencies, as needed, is 
actively developing a strategic plan to implement these provisions 
within the time frames contained in the Vow Act.
Conclusion
    Mr. Chairman, as I stated earlier, both DOL and VA are committed to 
the full and speedy implementation of the Vow to Hire Heroes Act of 
2011 in support of veterans' success in the civilian labor market. We 
will keep you and the Subcommittee apprised of implementation 
milestones through regular briefings, as requested.
    Members of the Committee, this concludes my statement. I would be 
pleased to answer any questions you may have.

                                 <F-dash>
      Prepared Statement of Curtis L. Coy, Deputy Under Secretary
      for Economic Opportunity, Veterans Benefits Administration,
                  U.S. Department of Veterans Affairs
    Good morning, Chairman Stutzman, Ranking Member Braley, and Members 
of the Subcommittee. I appreciate the opportunity to appear before you 
today to discuss the progress made by the Department Veterans Affairs 
(VA) toward implementing the provisions in title II of Public Law 112-
56, the ``Vow to Hire Heroes Act of 2011.'' I am accompanied today by 
Mr. Keith Wilson, Director of VA's Education Service. My testimony will 
discuss the relevant sections of the legislation and explain how we 
plan to address them, with particular emphasis on section 211.
    Many of the provisions outlined in the Vow to Hire Heroes Act of 
2011 closely align with the improvement of economic opportunities for 
Veterans. Secretary Shinseki has emphasized that this critical 
legislation will materially help our Servicemembers and Veterans with 
employment and transition. VA is committed to executing, in 
collaboration with other agencies and stakeholders, all provisions of 
this law for which we have responsibility, and I have outlined our 
coordinated approach in my testimony.
Section 211--The Veterans Retraining Assistance Program
    This section requires the Secretary of Veterans Affairs to 
establish a program of retraining assistance for eligible Veterans in 
collaboration with the Secretary of Labor not later than July 1, 2012. 
The number of Veterans who participate in the program may not exceed 
45,000 in fiscal year (FY) 2012 and 54,000 during the period beginning 
on October 1, 2012, and ending on March 31, 2014, when the authority to 
make payments under the program will terminate. Eligible Veterans will 
receive the Montgomery GI Bill-Active Duty (chapter 30) full-time 
benefit rate for up to 12 months. Training must be completed at a VA-
approved community college or technical school; it must lead to an 
associate degree, certificate, or other record or completion; and the 
training must pertain to an occupation deemed by the Department of 
Labor (DOL) to be in high demand. The training programs must begin on 
or after July 1, 2012, and the authority for VA to make payments ends 
on March 31, 2014.
    The law establishes a set of criteria that Veterans must meet in 
order to participate in the program. VA and DOL must evaluate a 
Veteran's age range, employment status, character of discharge, type of 
training, and other key elements when determining eligibility. The law 
requires VA and DOL to form a close partnership to successfully 
implement this retraining assistance program, including establishing a 
formal memorandum of agreement with a process for resolving disputes 
and appeals. VA and DOL must also track participants, payments, and 
degrees awarded, and submit a final report on the impact of the 
retraining program to the Senate Committees on Veterans' Affairs and 
Health, Education, Labor, and Pensions, and the House Committees on 
Veterans' Affairs and Education and the Workforce.
    In mid-November, VA and DOL representatives met to discuss plans 
for implementing the provisions of section 211. The participants 
identified high-level roles, responsibilities, and decision points, and 
discussed a preliminary VA-developed framework for an integrated master 
schedule for managing the implementation of this new program. VA also 
provided a high-level summary of the claims and payment process from 
VA's perspective to initiate collaborative discussions regarding 
information sharing and other logistical needs between the two 
Departments. At follow-up meetings, representatives from both 
Departments discussed how to successfully administer this program 
without duplication of effort and within the required time frame, 
including existing benefit processing and payment systems within VA, 
and One-Stop Career Centers and other Veteran intake centers within 
DOL.
    Initial DOL responsibilities identified in these meetings center on 
conducting initial Veteran intake, making DOL-specific eligibility 
determinations (unemployment, high-value career fields, etc.) as 
directed by the legislation, and ensuring that required information is 
collected and appropriately disseminated to VA. Initial VA 
responsibilities include conducting VA-specific eligibility 
determinations (eligibility to VA benefits, prior benefit usage), 
communicating eligibility decisions, processing enrollment information, 
and administering payments. VA is also focused on ensuring mechanisms 
are in place to meet the law's extensive reporting requirements.
    While VA and DOL are on an excellent track in implementation 
planning and tackling the more complex aspects of the law, we 
anticipate challenges associated with implementing this program.. The 
law requires rapid establishment of a broad partnership between 
agencies with vastly different operating structures and information 
technology (IT) systems. Provisions of this law, including wide-ranging 
eligibility criteria, present IT and logistical challenges in addition 
to the increased workload the program generates. The aggressive time 
frame also magnifies the complexity of this effort. VA and DOL are 
working hard to mitigate these risks using innovative solutions.
    To ensure this program's success, VA and DOL staff and leadership 
currently participate in weekly meetings to track progress, share 
information, and develop implementation strategies. Internally, VA 
staff and project leads meet daily to discuss implementation status and 
ensure we remain on track to meet the July 1, 2012 deadline. 
Additionally, VA is currently developing program management 
documentation, including a draft memorandum of agreement to outline the 
relationship and operation of the program between VA, DOL, and key 
representatives at the executive- and working-group levels.
    The implementation of the Veterans Retraining Assistance Program 
will include an outreach program for the appropriate target population. 
VA will use a variety of means and resources available to raise 
awareness about this new retraining benefit program, including the GI 
Bill Web site and the Education Service Facebook page.
    As VA and DOL work together to successfully implement the new 
training program many intricacies will need to be worked out within the 
time frame provided by the law.
Enhancements to Vocational Rehabilitation and Employment Services
    The new law will also enhance services provided by VA's Vocational 
Rehabilitation and Employment (VR&E) program. The law extends VA's 
authority to provide vocational rehabilitation services to injured, 
active-duty Servicemembers, and promotes collaboration between VR&E and 
other organizations to provide additional services to aid Veterans' 
transition to civilian employment. This law also allows VR&E to fund 
special employer incentives for Veterans who did not previously qualify 
for on-the-job training. In addition, VR&E can now provide an 
additional 12 months of benefits to Veterans who have exhausted their 
unemployment benefits, and also is now able to provide additional 
services to assist Veterans returning to employment. I would now like 
to provide specific information regarding implementation for each of 
the VR&E provisions.
Section 222--Individualized assessment on equivalence between military 
        occupational specialty (MOS) and qualifications for private 
        sector employment
    This section requires DOL, in consultation with the Department of 
Defense (DoD) and VA, to contract for a study to identify equivalencies 
between MOS-related skills and civilian employment. VA will work with 
DOL and DoD to review existing job-skill translators and to support the 
analysis required for DoD to comply with the requirement to ensure that 
all Transition Assistance Program participants receive an 
individualized assessment of civilian positions in the private sector 
for which they may qualify based on their military experience. DoD is 
expected to begin providing the individualized assessments to 
Servicemembers and sharing them with DOL and VR&E in November 2012. 
VR&E will be able to immediately use the assessments provided by DoD to 
develop education and employment goals for transitioning Veterans that 
have applied for VA education or VR&E benefits.
Section 231--Two-year extension to provide Vocational Rehabilitation to 
        Servicemembers
    Section 231 of the bill provides a 2-year extension of section 
1631(b)(2) of Public Law 110-181. This provision expedites 
rehabilitation services by allowing automatic eligibility and 
entitlement to VR&E services to be granted to active-duty 
Servicemembers referred by DoD with severe injuries or illnesses 
through December 31, 2014. This provision will enable VR&E to provide 
rehabilitation services, including career counseling, retraining, and 
placement services, to active-duty Servicemembers early in the 
disability evaluation process. In addition, it allows VA to help 
Servicemembers with maintaining or obtaining a new MOS, or to prepare 
them for civilian employment that does not aggravate their service-
connected injuries.
    A memorandum of understanding (MOU) with DoD is in place, and VR&E 
has drafted procedures for immediate implementation. This MOU 
implements VR&E counseling for Servicemembers transitioning through the 
Integrated Disability Evaluation System (IDES) at designated locations. 
Early access to VR&E services and assistance offers Servicemembers 
resources that aid their recovery, transition, and reintegration into 
civilian life. Eligible Servicemembers will be referred to VR&E if they 
are: evaluated by a DoD or VA physician and are determined to have a 
severe injury or illness that could cause their referral into the IDES; 
assigned to a Service's Wounded Warrior program and are participating 
in the Education and Employment Initiative (E2I) program; or being 
processed through the IDES and referred to a Physical Evaluation Board. 
The IDES project plan, which provides for 110 VR&E counselors to be 
stationed at selected IDES sites in FY 2012, will enable aggressive 
implementation of this section. VR&E expects to begin providing these 
services in February 2012.
Section 232--Expand VA authority to pay employers for on-the-job 
        training
    Section 232 of the bill allows VA to expand the Special Employer 
Incentive (SEI) program to employers who hire Veterans participating in 
a VR&E program even if the Veteran has not completed a training 
program. Prior to this law, a Veteran needed to have completed 
rehabilitation services, such as job retraining or education, in order 
to qualify for SEI. As a result of this legislation, VR&E will 
implement use of the SEI program for Veterans who choose to pursue 
employment, even if they were unable to fully complete their training 
programs, as well as for those Veterans who pursue a program consisting 
of solely employment services. VR&E is drafting procedures and 
developing staff training so that this provision may be implemented by 
January 20, 2012.
Section 233--Additional VR&E services to Veterans with exhausted rights 
        to unemployment benefits
    Section 233 of the bill entitles Veterans who have completed a VR&E 
program and exhausted state unemployment benefits to an additional 12 
months of vocational rehabilitation services. This legislative 
authority enables VR&E to provide services to Veterans who continue to 
struggle in obtaining employment. These services include an additional 
short-term training program, extensive job-seeking skills training, and 
job-placement services. It also allows for the provision of employment 
services to Veterans who are beyond the 12-year delimiting date and are 
not determined to have a serious employment handicap. VR&E will work 
with DOL to identify and conduct outreach to Veterans who may qualify 
for these services. VR&E will be ready to accept referrals and 
applications in February 2012 so that rehabilitation programs for these 
individuals may be in place on June 1, 2012, the effective date of this 
provision.
Sec. 262--Extension of reduced pension for certain veterans covered by 
        Medicaid plans for services
    In section 262, Congress extended through September 30, 2016, the 
provisions of 38 U.S.C. Sec. 5503(d), which limit to $90 the pension 
payable to certain recipients of Medicaid-covered nursing home care, 
and protect that pension payment from being applied to the cost of the 
recipient's nursing home care. This limitation was previously set to 
expire on May 31, 2015. Because section 262 extends existing authority, 
which VA already implemented, we anticipate no delay in implementing 
the revised law.
Sec. 264--Extension of authority for Secretary of Veterans Affairs to 
        obtain information from Secretary of Treasury and Commissioner 
        of Social Security for income verification purposes
    In section 264, Congress extended through September 30, 2016, VA's 
authority under 38 U.S.C. Sec. 5317 to enter into data matching 
agreements with the Internal Revenue Service and the Social Security 
Administration. This authority expired on September 30, 2011. VA uses 
this authority to identify reporting discrepancies by beneficiaries in 
the Department's income-based programs. Because section 264 extends 
existing authority, which VA already implemented, we anticipate no 
delay in implementing the revised law.
Section 265--Extend VA Home Loan Funding Fees
    As you know, on October 5, 2011, Public Law 112-37 extended VA's 
home loan funding fees at a higher rate structure through November 17, 
2011.
    On November 18, those fees reset to a lower rate structure, as 
prescribed in statute. In response to the reset, our Home Loan Guaranty 
program took action to provide Veterans, our program lenders, and key 
industry trade groups with guidance regarding the closing of loans 
during this time period. The Home Loan Guaranty program issued a 
program policy circular containing the necessary guidance, and posted 
that, along with a newsflash, to its Web site. We also ensured that 
Treasury's Funding Fee Payment System (FFPS), wherein lenders remit the 
funding fees to Treasury, was properly coded with the lower rate 
structure.
    With the approval of Public Law 112-56 on November 21, funding fees 
were once again set at the higher rate structure. Specifically, section 
265 of the law amended 38 U.S.C. Sec. 3729(b)(2) by extending VA's 
authority to collect certain fees and by adjusting the amount of the 
fees, through September 30, 2016. The Home Loan Guaranty program once 
again communicated these important program changes to Veterans and the 
mortgage industry. VA personally contacted the Home Loan program's 
largest lenders and several key industry trade groups to notify them of 
the bill signing and of the new funding fee rates. VA also drafted and 
posted a new program policy circular, which announced the signing of 
the bill, and outlined the fees in effect. This circular, along with 
another news update about the bill signing and the new fee rates, was 
posted to the Home Loan program's Web site on the day after the bill 
was approved. Additionally, VA worked with Treasury to update FFPS with 
the current rate structure. We are not aware of any Veterans having 
difficulty closing their VA-guaranteed home loans during this time 
period.
    As you know, Mr. Chairman, there is one provision in the bill not 
connected with VBA that relates to ambulance reimbursement. That is a 
subject of Veteran Health Administration operations, so I will not 
address it in this testimony, other than to note my understanding that 
VA has brought one technical issue to the Committee staff's attention, 
as well as their counterparts in the Senate.
    Mr. Chairman, this concludes my statement. I would be pleased to 
answer any questions you or other Members of the Subcommittee may have.
                   MATERIAL SUBMITTED FOR THE RECORD
Deliverable from Department of Veterans Affairs, Received February 1, 
        2012
Questions from Honorable Bill Johnson to Mr. Curtis Coy, Deputy Under 
        Secretary for Economic Opportunity, Veterans Benefits 
        Administration, U.S. Department of Veterans Affairs
    Mr. Johnson: Can you explain how employment service staff will 
provide retraining and VRE applicants' names to the VA?
    Mr. Coy: That's one of the procedures and one that they have passed 
through is one of the complex problems. We have not figured it out yet, 
to be quite frank. We've begun those discussions, but I don't have an 
answer right now.
    Mr. Johnson: Do you have a time frame to--to resolve that?
    VBA Response: VBA will leverage the existing VA electronic 
application system (VONAPP). It will be modified to allow DOL access to 
submit Veterans' applications to VA. There is no retraining required 
for VBA staff, as VONAPP data is electronically transferred into VA's 
processing systems. There would only be minimal training required for 
DOL staff to enter the applications, as VONAPP is designed to be used 
directly by our Veterans and is therefore user-friendly. VA and DOL 
have not finalized a date when DOL will receive access to the system, 
but DOL will be able to submit applications to VA prior to July 1, 
2012.


</pre></body></html>
